HHS/OIG-Audit--"Results of Audit of Medical Therapy Services, Inc., Cost Reports, (A-04-96-02122)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Results of Audit of Medical Therapy Services, Inc. Cost Reports," (A-04-96-02122)
September 2, 1997
Complete
Text of Report is available in PDF format (800 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes the result of our review of costs claimed by Medical Therapy Services, Inc., a chain of outpatient
therapy clinics in Georgia. Our review of the chains' 1995 Medicare cost reports showed that the home office and the four
clinics claimed $761,849 of costs that did not meet Medicare reimbursement guidelines. The unallowable costs included estimated
home office costs, unallowable related party transaction costs, and unreasonable costs. We recommended the Health Care
Financing Administration (HCFA) instruct the appropriate intermediary to adjust the cost reports for the $761,849. The
HCFA concurred with our findings and recommendation.